App. No. ____

IN THE
SUPREME COURT OF THE UNITED STATES
NATIONAL ASSOCIATION FOR GUN RIGHTS, INC.
Applicant,
v.
JEFF MANGAN, in his official capacity as the Commissioner of Political Practices for
the State of Montana; Timothy G. Fox, in his official capacity as Attorney General
for the State of Montana; Leo J. Gallagher, in his official capacity as County
Attorney for the County of Lewis and Clark
Respondents.

CERTIFICATE OF SERVICE

I, David Warrington, hereby certify that, on this 30th day of October, 2019, I
caused a copy of the foregoing Application to be filed with the Clerk of the United
States Supreme Court, and to be served on the following by first-class mail, postage
pre-paid, as well as electronically:
Matthew T. Cochenour, Assistant Attorney General
Jere Stuart Segrest, Assistant Attorney General
AGMT - Office of the Montana Attorney General (Helena)
215 North Sanders Street
P.O. Box 201401
Helena, MT 59620

Counsel for Jeff Mangan,
Timothy Fox, and Leo J. Gallagher

/s/ David Alan Warrington
David Alan Warrington
KUTAK ROCK LLP
1625 Eye Street, NW

Suite 800
Washington, D.C. 20006
Telephone: (202) 828-2437
Facsimile: (202) 828-2488
david.warrington@kutakrock.com

Counsel for Applicant

